                             Office of Inspector General
                            Corporation for National and
                                     Community Service




             AUDIT OF THE
     CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE’S
           FISCAL YEAR 2011
        NATIONAL SERVICE TRUST
              SCHEDULES

           Audit Report Number 12-02




                     Prepared by:

                  Kearney & Company
              1701 Duke Street, Suite 500
               Alexandria, Virginia 22314




This report was issued to Corporation management on November 15, 2011.
                                  Office of Inspector General
                                Corpo/-ation J or
                                NATIONAL&'
                                COMMUNITY
                                SERVICE ........-.-
                                     November 15, 2011


TO:           Robert Velasco
              A ti~ Chief Executive Officer

FROM:          0 e      alters
              Assistant Inspector General for Investigations

SUBJECT:      Audit of the Corporation for National and Community Service's
              Fiscal Year 2011 National Service Trust Schedules, OIG Audit Report 12-02

Attached is the Independent Auditor's Report on the Fiscal Year 2011 National Service Trust
Schedule of Financial Position, and the related schedules of Operations and Changes in Net
Position, Budgetary Resources and Trust Obligations (Schedules). We contracted with the
independent certified public accounting firm of Kearney & Company (Kearney) to audit the
financial statements of the Corporation as of September 30, 2011 and 2010, and for the years
then ended. The contract required that the audit be performed in accordance with generally
accepted government auditing standards.

In its audit, Kearney found that the Schedules present fairly, in all material respects, the
financial position of the Corporation's National Service Trust Fund for the fiscal year ended
September 30, 2011.

Kearney is responsible for the attached auditor's report, dated November 15, 2011, and the
conclusions expressed therein. The Office of Inspector General does not express an opinion on
the Schedules.

Attachment

cc:     James Siegal, Chief of Staff
        Kim Mansaray, Acting Chief Operating Officer
        William Anderson, Chief Financial Officer
        Idara Nickelson, Chief of Program Operations
        Valerie Green, General Counsel
        Rocco Gaudio, Deputy CFO for Grants and Field Financial Management
        Philip Clark, Chief Information Officer
        David Zavada, Engagement Partner, Kearney & Company




                  1201 New York Avenue, NW  *          *
                                               Suite 830  Washington, DC 20525
                     202-606-9390  *Hotline: 800-452-8210* www.cncsoig.gov

                       Senior Corps * AmeriCorps * Learn and Serve America
                                                              1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                              PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                           REPORT OF INDEPENDENT AUDITORS

To the Board of Directors and Inspector General of the Corporation for National and Community
Service


We have audited the accompanying special purpose schedules of financial position of the
Corporation for National and Community Service’s (the Corporation) National Service Trust
Fund (Trust) as of September 30, 2011 and 2010, and the related special purpose schedules of
operations and changes in net position, trust obligations, and trust budgetary resources
(hereinafter referred to as the “Trust Schedules”) for the years then ended. These Trust
Schedules are the responsibility of the Corporation’s management. Our responsibility is to
express an opinion on these Trust Schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
as amended. Those standards require that we plan and perform the audits to obtain reasonable
assurance about whether the Trust Schedules are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the Trust
Schedules. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall Trust Schedules presentation.
We believe that our audits provide a reasonable basis for our opinion.

The accompanying Trust Schedules were prepared for the purpose of complying with the
National and Community Service Act of 1990 (Public Law 101-610), as amended, and are not
intended to be presented in conformity with generally accepted accounting principles.

In our opinion, the Trust Schedules referred to above, including the accompanying notes,
present fairly, in all material respects, the assets, liabilities, net position, and Trust obligations
of the Corporation as of September 30, 2011 and 2010, and the revenues, expenses, budgetary
resources, obligations, and commitments for the years then ended, in conformity with the
basis of accounting described in Note A of the Trust Schedules.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended,
we have also issued reports, dated November 15, 2011, on our consideration of the
Corporation’s internal control over financial reporting and compliance, and on our tests of the
Corporation’s compliance with certain provisions of laws, regulations, and other matters for the
year ended September 30, 2011. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance as well as the results of that
testing, and not to provide an opinion on the internal control over financial reporting or on
compliance and other matters. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended,
and should be considered in assessing the results of our audits.

                 *       *      *      *       *      *       *      *      *

This report is intended solely for the information and use of the Corporation’s management,
those charged with governance and others within the Corporation, the Corporation’s Office of
Inspector General, the Government Accountability Office, OMB, the U.S. Department of the
Treasury, and Congress, and is not intended to be and should not be used by anyone other than
these specified parties.




Alexandria, Virginia
November 15, 2011
                                NATIONAL SERVICE TRUST FUND

                              SCHEDULE OF FINANCIAL POSITION
                                      as of September 30
                                    (dollars in thousands)

                                                                              2011               2010
Assets
 Trust Fund Balance with Treasury                                       $            361     $          241
 Investments, carrying value                                                   604,218            563A53
 Investment and interest receivable                                              1A43               1,742
 Accounts receivable                                                               643                  214
Total Assets                                                            $      606,665       $    565,650


Liabilities
 Service Award Liability                                                $      410,261       $    379,878


Net Position
  Cumulative Results of Operations                                              196A04            185,772


Total Liabilities and Net Position                                       $     606,665       $    565,650




                 The accompanying notes are an integral part of these financial schedules.
                                NATIONAL SERVICE TRUST FUND


              SCHEDULE OF OPERATIONS AND CHANGES IN NET POSITION
                                 For the Period Ending September 30
                                        (dollars in thousands)

                                                                              2011               2010
Revenues
 Appropriations                                                          $      199,260      $    197,000
 Transfer in of Program Funds                                                     1,940             2,659
 Interest                                                                         4,669             7,288
 Other                                                                              152               155
Total Revenues                                                                  206,021           207,102


Expenses
 AmeriCorps Program                                                             195,817           217,767
 Service Learning Program
 (Writeof£) / Recovery of Receivables                                              (428)                136
Total Expenses                                                                  195,389           217,903


Excess of Revenues Over Expenses                                         $       10,632      $    (10,801)



Net Position
 Excess of Revenues Over Expenses                                        $       10,632      $    (10,801)
 Net Position, Beginning of Year                                                185,772           196,573
Net Position, End of Year                                                $      196,404      $    185,772




                 The accompanying notes are an integral part of these financial schedules.
                                NATIONAL SERVICE TRUST FUND



                              SCHEDULE OF TRUST OBLIGATIONS
                                           ~s of September 30
                                         (dollars in thousands)

                                                                              2011               2010
Resources
 Trust Fund Balance with Treasury                                        $         361       $         241
 Investments, carrying value                                                   604,218            563,453
 Investment and interest receivable                                               1A43               1,742
 Accounts receivable                                                               643                 214
    Sub-total                                                                  606,665            565,650
 Less investments and receivables not available for obligation                   (3,052)            (4,772)
 Less Trust Reserve                                                             (50,197)           (50,197)
Total Resources                                                         $      553A16        $    510,681



Unliquidated Obligations
 President's Freedom Scholarships                                       $          880       $        882
 Education Awards                                                              526,707            481,084
 Interest Forbearance                                                           15,002             16,843
Total Unliquidated Obligations                                                 542,589            498,809

Commitments
  Education Awards
  Interest Forbearance
Total Commitments

Total Budgetary Uses                                                    $      542,589       $    498,809




Funds Available for Obligation at September 30                          $        10,827      $     11,872




                 The accompanying notes are an integral part of these financial schedules.
                                NATIONAL SERVICE TRUST FUND

                       SCHEDULE OF TRUST BUDGETARY RESOURCES
                            For the Period Ending September 30
                                   (dollars in thousands)

                                                                              2011               2010

Funds Available for Obligation, beginning of year                       $        11,872      $     12,875


Budgetary Resources
  Appropriations
     Appropriation Received in Trust (net of rescissions)                      199,260            197,000
     Transfers in of Program Funds                                               1,940              2,659
     Deobligation of Member Positions                                            2,226              8,388
     Collection of Audit Receivables                                               151                155
  Less: Addition to Trust Reserve

Total Budgetary Resources                                               $      215,449       $    221,077



Obligations
  Education Awards                                                       $      197,115      $     201,390
  Interest Forbearance                                                            7,507              7,815
  President's Freedom Scholarships
Total Obligations                                                              204,622            209,205


Net Change in Commitments
  Education Awards
  Interest Forbearance
Total Commitments

Total Budgetary Uses                                                    $      204,622       $    209,205



Funds Available for Obligaton, end of year                              $        10,827      $     11,872




                 The accompanying notes are an integral part of these financial schedules.
NOTES TO THE TRUST FUND SCHEDULES
      A. Basis of Accounting
The Schedules of Financial Position; Operations and Changes in Net Position; Trust Obligations;
and Trust Budgetary Resources have been prepared from the books and records of the
Corporation in accordance with the National and Community Service Act of 1990, as amended by
Edward M. Kennedy Serve America Act (Section 149 of Public Law 101-610, 42 USC § 12606).

The activities of the Trust are funded through the annual Departments of Labor, Health and
Human Services, and Education, and Related Agencies Appropriations Act, which funds
National and Community Service Act programs. Appropriations are provided on a no-year basis
for the Trust, a fund within the Corporation used to provide education awards and student loan
interest forbearance to eligible participants. Trust appropriations do not expire with the passage
of time and are retained by the Corporation in the Trust until used for eligible purposes.

The Trust provides awards for AmeriCorps members serving in approved national service
positions under AmeriCorps State and National, AmeriCorps NCCC, and AmeriCorps VISTA, as
well as for the AmeriCorps Education Award Program, where sponsoring organizations are
responsible for providing member subsistence and other costs, and the Corporation provides an
education award and a small amount for administrative costs. Programs have up to two years
after award to enroll members in positions.

Funds from the Trust may be expended for the purpose of providing an education award or
student loan interest forbearance payment and must always be paid directly to a qualified
institution (college, university, or other approved educational institution, or a lending institution
holding an existing student loan) as designated by the participant. The Trust may also expend
funds for payments under the President's Freedom Scholarship Program as authorized under
various Corporation appropriations through fiscal 2006.

Assets, liabilities, and net position, included in the Schedule of Financial Position and revenues
and expenses included in the schedule of operations and changes in net position are presented in
accordance with Generally Accepted Accounting Principles. The accompanying schedules of
Trust Obligations and Trust Budgetary Resources were prepared in accordance with budgetary
accounting rules.

The recognition of budgetary accounting transactions is essential for compliance with legal
controls over the use of Federal funds. Budgetary accounting principles are designed to
recognize the obligation of funds upon the establishment of a properly documented legal
liability, which in many cases is different from the occurrence of an accrual-based transaction.

The National and Community Service Act of 1990 (NCSA), as amended by the Edward M.
Kennedy Serve America Act (PL 111-13), establishes the specific criteria for estimating and
recording obligations in the Trust. Accordingly, Trust obligations are recorded at the time the
Corporation: (1) enters into an enforceable agreement with an individual participant to serve in a
program carried out under subtitle E of title I of the National and Community Service Act of 1990
(42 USC § 12611 et seq.), or title I of the Domestic Volunteer Service Act of 1973 (42 USC § 4951 et
seq.); or (2) awards a grant to (or enters into a contract or cooperative agreement with) an entity
NOTES TO THE TRUST FUND SCHEDULES - CONTINUED
to carry out a program for which such a position may be approved under section 123 of the Act
(42 USC § 12573). The obligational amount is based on the estimated value of the education
benefit, discounted for the estimated enrollment, earning and usage rates, and the time value of
money.

For fiscal 2011 the factors used to calculate Trust obligations and budgetary needs were the full
value of the Segal AmeriCorps Education Award, a 100 percent enrollment rate (allowing for
refills), an average earning rate of 84 percent (the rate ranges from 77 to 86 percent depending on
term type), and an average usage rate of 87 percent. Under the Serve America Act awards
earned by members age 55 or older at the time of enrollment can be transferred to an eligible
beneficiary. The Corporation projects that all transferable awards will eventually be used. For
program years 2002 and prior, the Corporation used the actual amounts earned, adjusted for
amounts used and the time value of money when establishing the obligation. Estimates for
program years 2003 and forward are periodically adjusted to reflect current usage projections
and actual fill rates. Funds related to these revised estimates are periodically deobligated and
become available for award for new program activities. The Corporation deobligated $2.226 and
$8.388 million in fiscal 2011 and 2010, respectively.

        B. Trust Appropriations
For fiscal year 2011, the National Service Trust received $199.260 million under the Department
of Defense and Full-Year Continuing Appropriations Act, 2011 (Public Law 112-10). For fiscal
year 2010, the National Service Trust received $197.000 million under the Consolidated
Appropriations Act, 2010 (Public Law 111-117). The acts also authorized the Corporation to
transfer additional amounts from subtitle C program funds to the National Service Trust to
support the activities of national service participants. The Corporation transferred $1.940 million
and $2.659 million to the Trust under this provision in fiscal year 2011 and 2010, respectively.

        C. Trust Reserve
As required by the Strengthen AmeriCorps Program Act (up to September 30, 2009) and section
149 of the National and Community Service Act (as of October 1,2009) the Corporation sets aside
in reserve a portion of the funds appropriated to the Trust in the event that its estimates used to
calculate obligational amounts for education awards prove to be too low. No funds were
added to the reserve in fiscal year 2011 or fiscal year 2010. The total amount held in reserve
under this provision was $50.197 million as of September 30, 2011 and 2010.

        D.      Trust Awards
Since the Corporation's inception in 1994, AmeriCorps members have earned over $2.18 billion
in education awards. The Corporation has made $1.49 billion in payments to educational
institutions and student loan holders on these awards. In addition, the Corporation has made
$55.45 million in interest forbearance payments since the program's inception. Approximately
$218.25 million in education awards earned had expired without being used as of September 30,
2011. The Trust obligation formula has been adjusted to reflect these expired awards. Payments
for President's Freedom Scholarships have totaled $21.7 million.
                      APPENDIX
______________________________________________________
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’S
             RESPONSE TO DRAFT REPORT
                                     NATIONAL&:
                                     COMMUNITY
                                     SERVICEt't'tt

MEMORANDUM

DATE:          November 14,2011


TO:            Robert Walters, Assistant Inspector General


FROM:          William Anderson, Chief Financial       Officer~~ ~~
SUBJECT:       Draft Report on the Corporation's FY 2011 National Service Trust Schedules


Thank you for the opportunity to respond to the draft report on the results of your audit of the
Corporation for National and Community Service's Fiscal Year 2011 National Service Trust
Schedules. I am pleased that we can report that in FY 2011 CNCS maintained its record of
strong fiscal stewardship for the American people. Fiscal Year 2011 marks the ninth year the
schedules have been prepared and the ninth year that CNCS received an unqualified "clean"
opinion on the Trust Schedules. Staff and senior leadership across the agency are committed to
sound, accountable, and transparent financial management and our stakeholders should have
confidence in our efforts to further strengthen financial management practices at the Corporation
moving forward. Finally, I would like to take this opportunity to thank the financial
management professionals throughout the agency for their dedication and hard work throughout
the past year. Their efforts ensure that we deliver the most accurate, transparent, and useful
financial information possible.




                            1201 New York Avenue, NW· Washington, DC 20525
                                   202-606-5000 • www.nationaiservice.org
                            Senior Corps· AmeriCorps • Learn and Serve America
